U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 22, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Throne Thomas Smiley v. United States, No. 20-6600
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 7,
2020. The government’s response is now due, after one extension, on March 22, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including April 21, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-6600
SMILEY, THRONE THOMAS
USA

MACKENZIE S. LUND
FEDERAL DEFENDERS MIDDLE DISTRICT OF
ALABAMA
817 SOUTH COURT STREET
MONTGOMERY, AL 36104
334-834-2099

